Report No. D-2011-046                      March 1, 2011




     Improving Planning for Military Construction of
           Army Child Development Centers
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ASIP                          Army Stationing and Installation Plan
CDC                           Child Development Center
CYSC                          Child Youth Services Center
GCM                           Garrison Capability Model
MILCON                        Military Construction
OACSIM                        Office of the Assistant Chief of Staff for Installation
                                 Management
OMB                           Office of Management and Budget
USACE                         United States Army Corps of Engineers
                                 INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DR IVE
                              ARLINGTON , VIRG INIA 22202-4704


                                                                            March 1,20 1I

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 C)-llEF FINANCIAL OFFICER
               AUDITOR GENERAL, DEPARTMENT OF TI-lE ARMY

SUBJECT: Improving Plmming for Military Constl'l1ction of Army Child Development
         Centers (Report No. 0-2011-046)


We are providing this repOl:t for review and comment. We determined that the Army
needed to improve planning for constructing child development centers to ensure the
appropriate use of Recovery Act funds. We considered management conunents on a draft
of this report when preparing the final report.

000 Directive 7650.3 requires that recommendations be resolved promptly. The
cOlllments from the Assistant Chief of Staff for Installation Management were not
responsive to Recommendation B. Therefore, we request additional comments by
March 31 , 2011.

If possible, please send a .pdf file containing your comments to audacl1l@dodig.mil.
Copies of your conunents must have the actual signature of the authorizing official for
your organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified conunents electron ically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-920 I (DSN 664-920 I).



                                       ~~    Assistant Inspector General
                                             Acqui sition and Contract Management
Report No. D-2011-046 (Project No. D2009-D000AE-0268.000)                             March 1, 2011


                 Results in Brief: Improving Planning for Military
                 Construction of Army Child Development
                 Centers

What We Did                                          demand at some garrisons while overserving
We evaluated DoD’s implementation of plans           others. Also, the Army’s overestimation of
for the American Recovery and Reinvestment           future Army childcare capacities could lead to
Act of 2009 (Recovery Act). Specifically, we         making decisions for future childcare needs based
determined that the Army needed to improve           on faulty assumptions.
planning for constructing child development
centers (CDCs) to assure the appropriate use of      What We Recommend
Recovery Act funds.                                  We made no recommendation to the Assistant
                                                     Chief of Staff for Installation Management
What We Found                                        regarding the apportionment of childcare spaces
The Army’s overall requirements for Recovery         because the Army took responsive action to
Act-funded CDCs were valid. However,                 notify Congress, through the DoD Comptroller,
internal controls in the following areas             of its intent to use available Recovery Act funds
involving planning for the apportionment of          to construct a CDC at Fort Polk, Louisiana. At
child development center resources needed            the time of our audit, the Army was projecting
improvement.                                         Fort Polk as the fort that would have the greatest
                                                     shortfall in childcare capacity in FY 2015.
The apportionment of 1,633 childcare spaces
among the seven selected bases was                   We recommend that the Assistant Chief of Staff
questionable. Also, the Army’s methodology of        for Installation Management revise its
using the design capacities (fixed numbers           estimating methodology for assessing CDC
based on the constructed buildings), rather than     capacity. Specifically, the Army should apply
the operational capacities (varies depending on      corrective factor(s) and percentage(s) to reduce
the age group of the children), of planned CDCs      CDC design capacities to expected operational
to assess its ability to meet projected childcare    capacity ranges when estimating a garrison’s
demand overestimated future Army childcare           future operational capability.
capacity. The apportionment inequities occurred
because Army planners focused mainly on              Management Comments and
formulating a construction plan for CDCs using       Our Response
earlier approved but unfunded project requests       The Assistant Chief of Staff for Installation
to promote timely expenditure of the $80             Management disagreed with our findings and
million Recovery Act authorization. Army             recommendation, stating that the
planners did not emphasize working toward the        recommendation would reduce the number of
most equitable distribution of childcare             children served in Army CDCs. Our
resources. The Army’s overestimate of                recommendation would improve CDC
childcare capacity occurred because its              assessment accuracy and would thereby better
assessment tool, the Garrison Capability Model,      match new CDC construction to actual CDC
used design capacity of future CDCs to estimate      needs without any reduction in the number of
Army childcare capacity. As a result, the            children served. Therefore, we request
Army’s plans for constructing CDCs with              additional management comments. Please see
Recovery Act funds will underserve childcare         the recommendations table on page ii.
Report No. D-2011-046 (Project No. D2009-D000AE-0268.000)        March 1, 2011



Recommendations Table

Management                                  Recommendation Requiring Comment
Assistant Chief of Staff for Installation                   B
Management

Please provide comments by March 31, 2011.




                                            ii
Table of Contents
Introduction                                                                     1

      Objective                                                                  1
      Recovery Act Background                                                    1
      Recovery Act Requirements                                                  1
      OMB Recovery Act Guidance                                                  2
      DoD Recovery Act Program Plans                                             2
      Army’s Planned Construction of Recovery Act-Funded Child Development
          Centers                                                                2
      Army Policy on Establishing and Operating Child Development Services       3
      Review of Internal Controls                                                4

Finding A. Inadequate Planning for the Apportionment of Childcare Spaces         5

      Apportionment of Childcare Spaces Was Questionable                         5
      Army Did Not Focus on Needs-Based Planning to Provide Additional CDC
         Capacity to Bases with the Greatest Need                                6
      Opportunity for Adjusting Apportionment of Childcare Spaces Still Exists   7
      Summary                                                                    8
      Management Actions During the Audit                                        8
      Management Comments on the Finding                                         8

Finding B. Army Methodology Overestimated Future Childcare Capacity              9

      Army Model Used Design Capacity for Estimating Future Childcare Capacity 9
      Design Capacity Overestimated Childcare Capacity                          9
      Army Needs to Revise Methodology for Assessing CDC Childcare Capacity 10
      Conclusion                                                               11
      Recommendation, Management Comments, and Our Response                    11

Appendices

      A. Scope and Methodology                                                 13
            Prior Audit Coverage                                               15
      B. Recovery Act Criteria and Guidance                                    16
      C. Army Military Construction Criteria and Guidance                      18
      D. Currently Planned Apportionment Versus a Needs-Based Apportionment of
            Recovery Act Funded Child Development Centers                      19
      E. Summary of Army Comments and Our Response                             20

Management Comments

      Department of the Army                                                     31
Introduction
Objective
Our overall objective was to evaluate how DoD implemented its plans for the Recovery
Act, so that we can ensure accountability and transparency of Recovery Act funds. As
part of achieving our overall objective, we determined whether the military construction
of Army child development centers (CDCs) was adequately planned to ensure the
appropriate use of Recovery Act funds. See Appendix A for a discussion of our scope and
methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create and save jobs.

       The purposes of this Act include the following:
              (1) To preserve and create jobs and promote economic recovery.
              (2) To assist those most impacted by the recession.
              (3) To provide investments needed to increase economic efficiency by
                  spurring technological advances in science and health.
              (4) To invest in transportation, environmental protection, and other
                  infrastructure that will provide long-term economic benefits.
              (5) To stabilize State and local government budgets, in order to minimize
                  and avoid reductions in essential services and counterproductive state
                  and local tax increases
                  .        .         .         .       .        .       .
       . . . the heads of Federal departments and agencies shall manage and expend the
       funds made available in this Act so as to achieve the purposes specified . . .
       including commencing expenditures and activities as quickly as possible
       consistent with prudent management.

See Appendix B for implementing Recovery Act criteria and guidance.

Recovery Act Requirements
The Recovery Act and implementing Office of Management and Budget (OMB)
guidance require projects to be monitored and reviewed. We grouped these requirements
into the following four phases: (1) planning, (2) funding, (3) execution, and (4) tracking
and reporting. The Recovery Act requires that projects be properly planned to ensure the
appropriate use of funds. Review of the funding phase is to ensure the funds were
distributed in a prompt, fair, and reasonable manner. Review of the project execution
phase is to ensure that contracts awarded with Recovery Act funds were used for
authorized purposes; and that instances of fraud, waste, error, and abuse were mitigated.
Review of the execution phase also ensures that program goals were achieved, including
specific program outcomes and improved results on broader economic indicators; that
projects funded avoided unnecessary delays and cost overruns; and that contractors or



                                                   1
recipients of funds reported results. Review of the tracking and reporting phase ensures
that the recipients’ use of funds was transparent to the public and that benefits of the
funds were clearly, accurately, and timely reported.

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance, and DoD and the Components issue their implementation
guidance. OMB has issued 10 memoranda and 1 bulletin to address the implementation
of the Recovery Act. See Appendix B for Recovery Act criteria and guidance.

DoD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DoD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization; Homeowners Assistance; Military Construction
(MILCON); Near Term Energy-Efficient Technologies; and U.S. Army Corps of
Engineers (USACE) Civil Works.

The values of the six Recovery Act programs are shown in the following table.
          DoD Agency-Wide and Program-Specific Recovery Act Programs
                              Program                          Amount
                                                             (in millions)
      Energy Conservation Investment                               $120
      Facilities Sustainment, Restoration, and Modernization      4,260*
      Homeowners Assistance                                         555
      Military Construction                                       2,185
      Near Term Energy-Efficient Technologies                       300
      U.S. Army Corps of Engineers Civil Works                    4,600
         Total                                                 $12,020*

*On August 10, 2010, Public Law 111-226, Title III, “Recessions,” rescinded $260.5 million of funds from
DoD Operations and Maintenance Accounts supporting the Recovery Act. This reduced the DoD Recovery
Act FSRM amounts to approximately $4 billion and total DoD Agency-Wide and Program Specific
Recovery Act program funding to approximately $11.76 billion.

The Recovery Act divides the approximately $12 billion among 32 DoD and USACE line
items of appropriations.

Army’s Planned Construction of Recovery Act-Funded
Child Development Centers
The Army’s planned construction of Recovery Act-funded CDCs meets the purposes of
the Recovery Act by creating jobs for both construction and long-term operation and
management of the CDCs. Through Public Law 111-5, “American Recovery and
Reinvestment Act of 2009,” February 17, 2009, specifically title X, “Military

                                                   2
Construction and Veterans Affairs,” the Army received $80 million in Recovery Act
appropriations for the military construction (MILCON) of Army CDCs (preschools). The
Army planned to use the Recovery Act funding to construct six CDCs and a child youth
services center (CYSC) at seven garrisons to provide 1,633 additional childcare spaces.
Estimated costs were:

   •   Fort Belvoir, Virginia: $14.6 million (CDC, capacity of 338);
   •   Fort Hood, Texas: $12.7 million (CDC, capacity of 338);
   •   Fort Carson, Colorado: $12.5 million (CDC, capacity of 232);
   •   Fort Bragg, North Carolina: $11.3 million (CDC, capacity of 232);
   •   Fort Drum, New York: $10.7 million (CDC, capacity of 126);
   •   Fort Eustis, Virginia: $9.6 million (CDC, capacity of 232); and
   •   Hunter Army Airfield, Georgia: $8.6 million (CYSC, maximum capacity of 135).

Due to a favorable contract bid environment, the actual construction costs were expected
to be less than the appropriations, resulting in additional military construction funds of
between $11.7 million and $20 million. In addition to building the 7 CDCs with
Recovery Act funding, the Army planned to construct 14 additional CDCs and CYSCs at
an estimated cost of $121 million between FYs 2010 and 2015. See Appendix C for
criteria on Army MILCON.

Army Policy on Establishing and Operating Child
Development Services
Army Regulation 608-10 (Personal Affairs), “Child Development Services,” July 15,
1997, prescribes policy and procedures for establishing and operating Army child
development services. Under the regulation, Army child development services include
the following:

   •   CDCs, which are centralized installation facilities used for the child development
       program.
   •   Family Childcare, which involves childcare services provided by military family
       members in individual housing units located on base or in Government-controlled
       housing off-base.
   •   Supplemental Programs and Services, which involve alternative childcare
       programs and services that augment the services provided by the CDCs and
       family childcare.

Under the general business rules of the Army’s Garrison Capability Model (GCM), the
above three sources provide child development services to military, civilian, and
contractor personnel. CDCs are normally expected to fulfill from 60 to 80 percent of a
garrison’s childcare needs, with family childcare and supplemental programs and services
meeting the rest. Per Assistant Chief of Staff for Installation Management memorandum,
“Army Standard for Child Development Centers,” March 12, 2008, Army CDCs have
three standard sizes, with design capacities of 126, 232, and 338 children.


                                            3
Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the Army’s planning for construction of CDCs with Recovery Act funds.
Specifically, the Army’s planning for the use of Recovery Act funds in constructing
CDCs did not include working toward the most equitable distribution of childcare
resources. Additionally, the Army’s methodology for estimating the capacity of planned
CDCs did not consider the difference between the design and operational capacities of
CDCs. The Army’s planned action to fund construction of an additional CDC at a fort
having the greatest need for additional capacity documents that the Army is now
effectively working towards equitable distribution of childcare resources.




                                            4
Finding A. Inadequate Planning for the
Apportionment of Childcare Spaces
The Army’s planning for constructing seven CDCs with Recovery Act funds was not
adequate. Specifically, Army projections for FY 2015 show that plans for constructing
Recovery Act-funded CDCs at seven bases will result in available CDC childcare
capacity varying from 77 percent of projected CDC childcare demand at Fort Bragg,
North Carolina, to 102 percent of projected CDC childcare demand at Hunter Army
Airfield, Georgia; Fort Hood, Texas; Fort Carson, Colorado; and Fort Eustis, Virginia.
This condition occurred because the Army did not focus on needs-based planning,
involving constructing larger CDCs at bases with greater projected childcare needs and
smaller CDCs at bases with relatively smaller projected needs. Instead, the Army
formulated a CDC construction plan using previously approved but unfunded project
requests to promote timely expenditure of the $80 million in Recovery Act authorization
for CDCs. As a result, there will be greater variation in the ability of the seven bases to
meet requirements for childcare spaces than would have occurred had the Army used
needs-based apportionment childcare capacity.

Apportionment of Childcare Spaces Was Questionable
Although the Army’s Recovery Act-funded CDC requirements were valid, the
apportionment of 1,633 childcare spaces among the 7 selected bases was questionable. To
document how the Army could have apportioned childcare capacity to more effectively
meet needs, we made a comparison of currently planned versus needs-based
apportionment of CDCs to meet FY 2015 CDC childcare space requirements at the seven
Army Bases receiving Recovery Act-funded CDCs. For the Army’s currently planned
apportionment of childcare capacity, the following factors applied:

   •   The Army used business rules from the Army’s GCM for establishing targets at
       each base for the percent of childcare service requirements to be met through
       facility-based sources (CDCs and CYSCs). The Army established these targets
       after considering factors relevant to each base, such as geographic location
       (isolated, standard, or metropolitan) and the availability of off-post alternatives.

   •   The Army established planned sizes for Recovery Act-funded CDCs at Forts
       Hood, Drum, Belvoir, and Eustis and for the CYSC at Hunter Army Airfield by
       using earlier approved but currently unfunded project requests (DD Forms 1391)
       originally dated between May 2000 and December 2007. CDC sizes for Forts
       Bragg and Carson came from subsequent documents (Request for Proposal and
       Statement of Work, respectively) that updated the CDC sizes from the DD
       Form 1391. The Army updated these forms between June 2008 and August 2009
       to reflect the current costs and (for five of them) the new standard CDC sizes.
       However, the updates did not include re-evaluating the CDC childcare needs at
       the bases or comparing their CDC childcare needs with the rest of the Army.




                                             5
Our comparison showed that using needs-based                  . . . using needs-based
apportionment at the seven Army bases receiving             apportionment . . . would
Recovery Act-funded CDCs would have resulted in               have resulted in more
more closely meeting each base’s CDC childcare space           closely meeting each
requirements. Specifically, under the Army’s current         base’s CDC childcare
plan, two bases, Fort Bragg at 77 percent and Fort             space requirements.
Drum at 84 percent, would meet less than 90 percent of
CDC space requirements. Additionally, four bases,
Hunter Army Airfield, Fort Hood, Fort Carson, and Fort Eustis, would meet 102 percent
of CDC space requirements. Conversely, using needs-based apportionment to increase
the size of the planned CDCs at Fort Bragg and Fort Drum and decrease the size of those
planned at Fort Carson and Fort Hood would have resulted in only one base (Fort Bragg)
meeting less than 90 percent of the childcare space requirements that the Army targeted
to meet with CDCs. Additionally, two bases (Fort Eustis and Hunter Army Airfield), at
102 percent, would slightly exceed the targeted space requirements. Appendix D
provides details of our comparison of currently planned versus need-based apportionment
of CDC resources to meet CDC childcare space requirements for FY 2015 at the seven
Army Bases receiving Recovery Act-funded CDCs.

Army Did Not Focus on Needs-Based Planning to
Provide Additional CDC Capacity to Bases with the
Greatest Need
The Army did not focus on needs-based planning, involving constructing larger CDCs at
bases with greater projected childcare needs and smaller CDCs at bases with relatively
smaller projected needs. The U.S. Senate Committee on Appropriations, Subcommittee
on Military Construction, Veterans Affairs, and Related Agencies, requested the Army to
identify projects that it could execute quickly to provide construction stimulus. In
response, the Army formulated a CDC construction plan that would result in timely
expenditure of the $80 million in Recovery Act authorization for CDCs. Specifically, the
Army identified CDC projects for which they had already developed DD Forms 1391 and
had the USACE review the DD Forms 1391 to ensure costs were accurate and that
projects could be executed quickly. They did not re-evaluate the CDC childcare needs.

While the Army did identify projects that contributed to meeting childcare requirements
and that could be executed timely with reasonable costs, the Army did not emphasize
working towards the most equitable distribution of childcare resources. Additionally, the
                              Army’s actions did not fully meet the intent of Office of
     . . . the Army did not   Management and Budget memorandum M-09-15,
      emphasize working       “Updated Implementing Guidance for the American
        towards the most      Recovery and Reinvestment Act of 2009,” April 3, 2009.
   equitable distribution of The memorandum calls for projects that should deliver
     childcare resources.     long-term benefits such as improving educational quality
                              for beneficiaries such as families, infants, and preschoolers
(those served by CDCs). In choosing the projects, the memorandum calls for merit-based



                                            6
decisionmaking, which in the case of Army CDCs, means that the bases with the greatest
shortage of childcare services have the greatest need for and thus the greatest benefit
from additional CDC capacity.

Opportunity for Adjusting Apportionment of Childcare
Spaces Still Exists
Because the Army had already awarded contracts for all seven of the planned Recovery
Act-funded CDCs, there was no longer an opportunity to change the size of the CDCs to
adjust the apportionment of childcare spaces. Specifically, Army officials stated that
reapportioning these CDCs would lead to delays in project execution and increased costs,
including penalties for cancelling projects. However, there was still an opportunity for a
needs-based apportionment decision on an additional Recovery Act-funded CDC, due to
the lower-than-expected costs from the award of the contracts for the seven CDCs.
Specifically, the Army expected that there would be $11.7 million to $20 million of
additional funds, based on the difference between the $80 million in appropriations and
the amounts of the seven awarded contracts. Office of the Assistant Chief of Staff for
Installation Management (OACSIM) personnel estimated that it costs $8 million to
$10 million to build a CDC with a capacity of 126. On November 12, 2009, we
discussed using the additional funds to build a CDC at one of the Army bases projecting
significant childcare shortfalls in FY 2015 but that was not receiving a Recovery Act-
funded CDC. See Table 1 for a list of these Army bases.

     Table 1. Projected Percentage of Childcare Requirements Met in FY 2015
      for Army Bases Not Receiving Recovery Act Funds for Building CDCs
           Army Bases Not Receiving             Percent of Childcare
         Recovery Act-Funded CDCs          Requirements Met From CDCs
                                             and Other Army Childcare
       Detroit Arsenal, Michigan                         59
       Fort Polk, Louisiana                              67
       Aberdeen Proving Ground,                          70
       Maryland
       Fort Knox, Kentucky                               74
       West Point, New York                              77
       McAlester Ammunition Plant,                       78
       Oklahoma
       Fort Meade, Maryland                              79
       Presidio of Monterey, California                  79

During our audit discussions, OACSIM staff mentioned Detroit Arsenal, Michigan, and
Fort Polk, Louisiana, as potential candidates for the additional Recovery Act-funded
CDC because their childcare capacities were projected to be only 59 and 67 percent,
respectively, of needs in FY 2015. By building a Recovery Act-funded CDC at one of
these bases, the Army would better comply with the requirement for merit-based decision
making stated in Office of Management and Budget Memorandum M-09-15.



                                            7
Summary
The Army’s planned Recovery Act-funded CDC construction will relatively underserve
CDC childcare demand at some garrisons while relatively overserving others.
Specifically, our comparison showed that using needs-based apportionment at the seven
Army bases receiving Recovery Act-funded CDCs would have resulted in more closely
meeting each base’s CDC childcare space requirements. While contracting
considerations prevent resizing the original seven Recovery Act-funded CDCs, the
expected $11.7 million to $20 million of additional funds make it possible to use needs-
based apportionment when planning the construction of at least one additional CDC.

Management Actions During the Audit
On March 5, 2010, the Army, through the Assistant Chief of Staff for Installation
Management and in response to a discussion draft of this report, agreed with a
recommendation for using additional funds resulting from the contract awards on the
seven Recovery Act-funded CDCs to fund construction of an additional CDC at a base
having a greater need for additional capability. On April 29, 2010, the Army, through the
DoD Comptroller notified Congress of its intent to fund construction of a CDC at Fort
Polk, Louisiana, using the additional military construction funds. At the time of our
audit, the Army projected Fort Polk as the fort with the greatest shortfall in childcare
capacity in FY 2015. Because the other CDC decisions have already been contracted for,
we have not made any recommendations.

Management Comments on the Finding
The Assistant Chief of Staff for Installation Management disagreed with the finding and
Appendix D. See Appendix E for a summary of the comments and our response.




                                            8
Finding B. Army Methodology
Overestimated Future Childcare Capacity
The Army’s methodology of using design capacities, rather than operational capacities,
of planned CDCs to assess its ability to meet projected childcare demand overestimated
future Army childcare capacity. The Army’s overestimate of childcare capacity occurred
because its assessment tool, the GCM, used design rather than operational capacities of
future CDCs in estimating childcare capacity. As a result, the Army’s overestimation of
the capacities of planned CDCs could lead to making decisions for future childcare needs
based on faulty assumptions.

Army Model Used Design Capacity for Estimating Future
Childcare Capacity
The Army used the GCM to help garrisons assess their ability to meet projected childcare
demand caused by future Army population changes. The GCM also tracked the impact
of future planned construction of childcare facilities. To calculate childcare demand, the
Excel-based GCM used population data from OACSIM’s Army Stationing and
Installation Plan (ASIP) Common Operating Picture. The ASIP Common Operating
Picture is a spreadsheet that provides current and planned official soldier and civilian
population data by garrison. Based on expected childcare demand, the GCM:

   •   calculated a yearly maximum allocation of childcare spaces for each garrison,
   •   determined the need for facility-based (CDCs and CYSCs) and non-facility-based
       childcare spaces, and
   •   assessed each garrison’s current and future capabilities for meeting expected
       childcare demand.

The staff of the Family Morale, Welfare, and Recreation Command, under the OACSIM,
provided the briefing, “Garrison Capability Model,” March 2009, which described the
steps the GCM used to review CDC capacity and differentiated between design capacity
and operational capacity. Specifically, the briefing defined design capacity as a fixed
number based on the constructed building and stated that operational capacity varies
depending on the square footage and staff-to-child ratios dictated by the age group mix of
the children. For example, infants require more space and thus lower the CDC’s
operational capacity. The briefing stated that operational capacity is used for assessing
CDC capacity.

Design Capacity Overestimated Childcare Capacity
In examining Child Development Services Planning Charts, generated through the GCM
using ASIP Common Operating Picture data as of November 12, 2009, we noted that the
charts used design capacity of planned CDCs in estimating total facility-based childcare
capacity for the garrisons. However, the “Garrison Capability Model” briefing stated that
operational capacity, rather than design capacity, is used for assessing the capacity of
current CDCs.

                                            9
To determine the degree to which CDC design capacity can
                                                                     . . . for the existing
exceed operational capacity, our audit team surveyed
                                                                    large-size CDCs . . .
Installation Management Command staffs at the four bases we
                                                                     the design capacity
visited. As shown in the table below, we found that, for the
                                                                            exceeded
existing large-size CDCs (with child design capacities of 303),
                                                                           operational
the design capacity exceeded operational capacities by 17 to 24
                                                                     capacities by 17 to
percent.
                                                                           24 percent.
      Table 2. Comparison of CDC Design Capacity to Operational Capacity
                    (measured in number of childcare spaces)

          Army Base        Design     Operational      Overestimate in Using
                          Capacity     Capacity           Design Capacity
                                                       (with percent based on
                                                        operational capacity)
         Fort Hood,          303           258             45 (17 percent)
         Texas
         Fort Belvoir,       303           257             46 (18 percent)
         Virginia
         Fort Drum,          303           254             49 (19 percent)
         New York
         Fort Carson,        303           248             55 (22 percent)
         Colorado            303           244             59 (24 percent)

Design capacity is a fixed number based on the constructed building. In contrast,
operational capacity varies depending on the age group mix of the children. For example,
infants require more space and thus lower the CDC’s operational capacity. Also, total
enrollment may exceed capacity by up to 10 percent to compensate for absenteeism. The
303 child design capacity indicates that the Army constructed these CDCs before
March 12, 2008, when Assistant Chief of Staff for Installation Management
Memorandum, “Army Standard for Child Development Centers,” increased the design
capacity of large CDCs to 338 children. Also, there were two CDCs at Fort Carson with
303 child design capacities, so both are shown in the table. For accuracy and
consistency, we believe that the expected operational capacity (or range of capacities) for
future CDCs would be the more accurate factor for estimating the capacity that the future
CDCs would add to garrison’s childcare capabilities.

Army Needs to Revise Methodology for Assessing CDC
Childcare Capacity
The overestimate of childcare capacity of planned CDCs occurred because the Army’s
assessment tool, the GCM, used the design capacity of future CDCs, rather than the
operational capacity, in estimating childcare capacity. Specifically, the Family Morale,
Welfare, and Recreation Command briefing, “Garrison Capability Model,” March 2009,
provides a description of how the Army uses the GCM to help garrisons assess their



                                            10
ability to meet projected childcare demand caused by future Army population changes.
The briefing outlined a five-step process for making the assessment, and steps 1 and
 2 required:

   •   reviewing the current operational childcare capability, to include existing CDCs,
       and
   •   adding in projected childcare capability, to include programmed MILCON of
       CDCs.

Step 1 included defining CDC operational space capacity, based on square footage and
adult-to-child ratios. The briefing specifically stated that CDC operational space capacity
is not design capacity. We agree with step 1. However, we do not agree with the
                                   description the briefing provided for step 2, which
   . . . using design capacity of  included adding in planned military construction of
         CDCs in projecting        CDCs for projecting childcare capability. Specifically,
    childcare capability is less   the briefing showed two examples of adding design
   accurate because the actual     capacities, rather than expected operational capacities,
     operational capacity of a     of future CDCs to determine future childcare
     CDC will be less than the     capabilities. As described, step 2 is inconsistent with
           design capacity.        step 1, which uses operational capacities of CDCs as
                                   input for determining childcare capability.
Furthermore, using design capacity of CDCs to project childcare capability is less
accurate because the actual operational capacity of a CDC will be less than the design
capacity.

Conclusion
The Army’s methodology for using design capacities of planned CDCs for assessing its
ability to meet projected childcare demand overestimates the future Army childcare
capacity. As a result, the Army’s overestimation of the capacities of planned CDCs could
lead to making decisions for future childcare needs based on faulty assumptions.

Management Comments on the Finding
The Assistant Chief of Staff for Installation Management disagreed with the finding. See
Appendix E for a summary of the comments and our response.

Recommendation, Management Comments, and Our
Response
B. We recommend that the Assistant Chief of Staff for Installation Management
improve child development center assessment accuracy by revising its methodology
for assessing projected childcare capacity. Specifically, the Army should apply
corrective factor(s) and percentage(s) to reduce child development center design
capacities to expected operational capacity ranges when estimating a garrison’s
future childcare capacity.



                                            11
Department of the Army Comments
The Assistant Chief of Staff for Installation Management disagreed, stating that the
recommendation would reduce the number of children that can be served in CDCs built
using Army’s standard CDC designs.

Our Response
The comments from the Assistant Chief of Staff for Installation Management are not
responsive. His comments do not support the assertion that implementing the
recommendation would reduce the number of children served. Our recommendation
would improve CDC assessment accuracy by revising the Army’s methodology for
assessing projected childcare capacity. It would not reduce the number of children that
can be served in the CDCs that the Army plans to build. Our recommendation only
addresses the need for the Army to adjust its estimation methodology to better project the
operational capability ranges of planned Army CDCs. As discussed in the “Design
Capacity Overestimated Childcare Capacity” section, factors that reduce the number of
children served in an Army CDC include changes in the age group. For example, an
increase in the number of infants would require more space and therefore, lower the
number of children served. Accordingly, we request that the Assistant Chief of Staff
reconsider his position and provide comments on the final report.




                                            12
Appendix A. Scope and Methodology
We conducted this audit from September 2009 through August 2010 in accordance with
generally accepted government auditing standards. Generally accepted government
auditing standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objectives.

Scope
During the audit, we reviewed the Army’s planning for the MILCON of seven CDCs,
with an expected total cost of $80 million. The Army planned to build these CDCs at the
following installations:

   •   Fort Bragg, North Carolina;
   •   Fort Drum, New York;
   •   Fort Belvoir, Virginia;
   •   Fort Eustis, Virginia;
   •   Hunter Army Airfield, Georgia;
   •   Fort Carson, Colorado; and
   •   Fort Hood, Texas.

We reviewed planning documents and records dated from December 2000 to April 2010
from the OACSIM and the seven installations. These documents and records included:

   •   “Military Construction Project Data” sheets (DD Form 1391), which document
       project requirements and justifications for review and approval within the Army
       and DoD, and supporting documentation; and

   •   Child Youth and School Services charts, generated through the GCM showing
       current and projected (to FY 2015) capacity of and need for childcare services
       (including CDCs and CYSCs) at individual Army garrisons.

Methodology
We visited and interviewed Army personnel from the OACSIM, including staffs from the
Installation Management Command; the Family and Morale, Welfare, and Recreation
Command; and the Child, Youth, and School Services Directorate. We also visited and
interviewed USACE staff and garrison staff at the following four installations: Fort
Drum, New York; Fort Belvoir, Virginia; Fort Hood, Texas; and Fort Carson Colorado.

Before selecting DoD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division of the DoD Office of Inspector General analyzed all DoD agency-
funded projects, locations, and contracting oversight organizations to assess the risk of
waste, fraud, and abuse associated with each. We selected most audit projects and

                                            13
locations using a modified Delphi technique, which allowed us to quantify the risk based
on expert auditor judgment, and other quantitatively developed risk indicators. We used
information collected from all projects to update and improve the risk assessment model.
We selected 83 projects with the highest risk rankings; auditors chose some additional
projects at the selected locations.

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended, but also of types of projects and types of locations across the Military
Services, Defense agencies, State National Guard units, and public works projects
managed by USACE.

Use of Computer-Processed Data
We relied on computer-processed data from the OACSIM ASIP Common Operating
Picture spreadsheet. The ASIP Common Operating Picture spreadsheet provided
population numbers for the GCM, which is the Family and Morale, Welfare, and
Recreation Command’s tool for estimating Army childcare requirements and capabilities.
The GCM provided childcare numbers for the charts from the Child, Youth, and School
Services Directorate, which in turn supported our findings. To determine the reliability
of the ASIP data, we examined the control procedures the Army had implemented over
the collection and compilation of the data. Specifically, we determined that the garrison
commanders who submit ASIP data update the data quarterly and certify its accuracy
annually. We then obtained the latest annual certifications from the commanders from
each of the seven garrisons receiving a Recover Act-funded CDC. No issues regarding
data integrity came to our attention in the course of the audit.

Use of Technical Assistance
We used assistance from an engineer in the Technical Assessment Directorate, DoD
Office of Inspector General. The engineer assisted the audit team on audit planning and
fieldwork, including objectives, methodologies, CDC requirements, and computer-
processed data.




                                           14
Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act You can access unrestricted reports at
http://www.recovery.gov/accountability.

As part of the audit coverage of DoD projects funded by the Recovery Act, the
Department of Defense Inspector General, and the U.S. Army Audit Agency have issued
two memoranda and three reports respectively, which discuss military construction of
Army CDCs.

Department of Defense Inspector General
DoD IG Memorandum No. D-2010-RAM-011, “American Recovery and Reinvestment
Act Projects—Fort Drum, New York,” June 21, 2010

DoD IG Memorandum No. D-2010-RAM-007, “Child Development Center at
Fort Eustis, Virginia—Recovery Act Project 7,” May 28, 2010

U.S. Army Audit Agency
Army Audit Agency Report No. A-2010-0120-ALO, “American Recovery and
Reinvestment Act of 2009 - Fort Stewart and Hunter Army Airfield, Georgia,”
June 23, 2010

Army Audit Agency Report No. A-2010-0073-ALO, “American Recovery and
Reinvestment Act of 2009 - Fort Bragg, North Carolina,” April 5, 2010

Army Audit Agency Report No. A-2010-0070-FFH, “Child Development and Youth
Center Space Requirements,” March 16, 2010




                                         15
Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria documents (notes appear at
the end of the list):

   •   U.S. House of Representatives Conference Committee Report 111-16, “Making
       Supplemental Appropriations for Job Preservation and Creation, Infrastructure
       Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
       State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
       2009, and for Other Purposes,” February 12, 2009

   •   Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
       February 17, 2009

   •   OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
       Recovery and Reinvestment Act of 2009,” February 18, 2009

   •   OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
       Reinvestment Act of 2009 Appropriations,” February 25, 2009

   •   White House Memorandum, “Government Contracting,” March 4, 2009

   •   White House Memorandum, “Ensuring Responsible Spending of Recovery Act
       Funds,” March 20, 2009

   •   OMB Memorandum M-09-15, “Updated Implementing Guidance for the
       American Recovery and Reinvestment Act of 2009,” April 3, 20091

   •   OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
       With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   •   OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
       Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   •   OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
       of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
       June 22, 20092

   •   OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
       with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   •   OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
       September 11, 2009

                                           16
    •    OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
         Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
         Clause 52.204-11,” September 30, 20092

    •    OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
         and Reinvestment Act – Data Quality, Non-Reporting Recipients, and Reporting
         of Job Estimates,” December 18, 20092

    •    OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
         and Reinvestment Act,” March 22, 20102

    •    White House Memorandum, “Combating Noncompliance with Recovery Act
         Reporting Requirements,” April 6, 20102

    •    OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
         Compliance under the American Recovery and Reinvestment Act,” May 4, 2010




Notes
1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.


                                                     17
Appendix C. Army Military Construction
Criteria and Guidance
The following list includes the primary Army criteria documents for MILCON:

   •   Army Regulation 608-10 (Personal Affairs), “Child Development Services,”
       July 15, 1997;
   •   Department of the Army, Assistant Chief of Staff for Installation Management,
       Memorandum, “Army Standard for Child Development Centers,”
       March 12, 2008;
   •   Department of the Army Regulation 415-15 (Construction), “Army Military
       Construction and Nonappropriated-Funded Construction Program Development
       and Execution,” June 12, 2006; and
   •   USACE Technical Instructions 800-01, “Design Criteria,” July 20, 1998.




                                         18
                        Appendix D. Currently Planned Apportionment Versus a Needs-
                        Based Apportionment of Recovery Act-Funded CDCs
                                Seven Army Bases Receiving                                 Currently Planned                                      Needs-Based Apportionment of
                                Recovery Act-Funded CDCs                              Recovery Act-Funded CDCs                                     Recovery Act-Funded CDCs
DRAFT REPORT




                               (The CYSC is     Percent of the                      Planned   Percent of the Base’s                       Needs-      Change      Percent of the Base’s
                              denoted with *)    Total Army                          CDC      CDC Childcare Space                         Based         From     CDC Childcare Space
                                               Childcare to be                        Size      Requirements Met                           CDC        Planned      Requirements Met
                                                Met by CDCs                                   With the Added CDC 1                         Size 2
                                                                                                                                                     CDC Size    With the Added CDC1
                            Fort Bragg, NC           60                               232              77                                   338      ↑ increase            80
                            Fort Drum, NY            70                               126              84                                   232      ↑ increase            90
                            Fort Belvoir, VA         70                               338              94                                   338         same               94
                            Hunter Army
FOR OFFICIAL USE ONLY




                                                     30                                135                      102                         135              same                        102
                            Airfield, GA*
                            Fort Eustis, VA          80                                232                      102                         232             same                         102
                            Fort Carson, CO          70                                232                      102                         126          ↓ decrease                       97
                            Fort Hood, TX            60                                338                      102                         232          ↓ decrease                       99

                        1
                          “Percent of the Base’s CDC Childcare Space Requirements Met with the Added CDC” is the resulting percentage from including the capacity of the planned CDC (the second
                        main column) or needs-based CDC (the third main column). An example of how we computed this percentage is as follows: At Fort Bragg, CDCs were planned to meet
                        60 percent of projected childcare demand in FY 2015, which, according to the OACSIM database as of November 2009, would equate to 3,259 spaces (5,431 total demand x
                        60 percent). We then divided the total CDC spaces planned in FY 2015 (2,511, which includes the 232 spaces from the Recovery Act-funded CDC) by 3,259 to show that
                        77 percent of the bases’ CDC childcare space requirements would be met with the currently planned CDC.
                        2
                          We determined the “Needs-Based CDC Size” for the Recovery Act-funded CDCs based on comparative analysis of the seven installations’ CDC capacities and needs projected
                        to FY 2015. Army CDCs come in three standard design capacities of small–for 126 children, medium–for 232 children, and large–for 338 children. Similarly, CYSCs come in
                        three standard design capacities: 90, 135, and 180. In our analysis, we chose the needs-based mix of standard CDC and CYSC sizes that brought the seven installations closest to
                        meeting the 80 to 100 percent range of the projected CDC requirement at each installation, depending on the availability to off-post alternatives. According to Army practice,
                        CDCs are planned to meet 60 to 80 percent of projected total childcare demand at each installation, depending on the geographic location of the installation and the availability of
                        off-post alternatives. Because the Army had a finite amount of funding for building CDCs ($80 million), in order to increase two CDCs by one size each, we needed to decrease
                        other CDCs by the same amount. The highest percentage of CDC requirements met was 102 percent, which occurs at four installations. Because decreasing the size of an
                        additional CDC has a smaller effect on bases with more childcare capacity, we show decreases to the Recovery Act-funded CDCs at Forts Hood and Carson, whose childcare
                        capacities are far larger than those of Hunter Army Airfield and Fort Eustis.



                                                                                                                 19
Appendix E. Summary of Army Comments
and Our Response
Army Comments on the Report
The Assistant Chief of Staff for Installation Management disagreed with Findings A
and B, Recommendation B, and Appendix D. He stated that the Army’s CDC
construction program, including the Recovery Act-funded CDCs, as planned, will have a
positive impact on the Army. Additionally, the Assistant Chief of Staff made the
following suggestions.

   •   The final report should include all of the Army’s comments (the memorandum
       and five enclosures) because Enclosure 1 provides comments and support to
       justify his disagreement with the findings and recommendation, and Enclosures 2
       through 5 clarify the Army’s position that the planning process for constructing
       CDCs was adequate.

   •   The DoD Office of Inspector General should initiate mediation regarding the
       report’s findings with the Assistant Chief of Staff for Installation Management
       under the purview of the Army Deputy Auditor General, Forces and Financial
       Audits, or the Principal Under Secretary of Defense for Personnel Readiness.

Our Response
We agree that the Army’s CDC construction program, as planned, would have a positive
impact on the Army. In the Results in Brief and Finding A, we acknowledge that the
Army’s overall requirements for Recovery Act-funded CDCs were valid. However, there
is potential for improvement in planning the apportionment of CDC resources.

Furthermore, we have included all of the Assistant Chief of Staff’s comments, including
his detailed comments in Enclosure 1, “Detailed ACSIM/IMCOM/FMWRC Comments,”
and Enclosure 5, “Garrison Capability Model (GCM),” which provides a flowchart of the
Army’s GCM. We did not include Enclosures 2, 3, and 4 for the following reasons.

   •   Enclosure 2, “SAC-M Stimulus Package Request (#81110906),” did not convey
       any information not already included in Finding A. For example, Finding A
       states that the U.S. Senate Committee on Appropriations, Subcommittee on
       Military Construction, Veterans Affairs, and Related Agencies, requested the
       Army to identify projects that it could execute quickly to provide construction
       stimulus.




                                           20
   •   Enclosure 3, “MCA Project Listing for BES 3.4.2010,” (7 pages) lists more than
       300 Army projects, including 6 of the 7 Recovery Act-funded CDCs. Likewise,
       the enclosure did not convey any information not already included in Finding A
       regarding the Army’s use of approved DD Forms 1391 for Recovery Act-funded
       CDC projects.

   •   Enclosure 4, Army Regulation 420-1 supports an Assistant Chief of Staff for
       Installation Management comment that USACE reviewed the DD Forms 1391 for
       the CDC projects to ensure that costs were accurate and that the projects could be
       executed in a timely manner. We agree that the Army had USACE review the
       DD Forms 1391 to ensure that costs were accurate and that projects could be
       executed quickly and so stated in the report section “Army Did Not Focus on
       Needs-Based Planning to Provide Additional CDC Capacity to Bases with the
       Greatest Need.”

In reference to the Army’s suggestion to initiate mediation action under the purview of
the Army Deputy Auditor General, Forces and Financial Audits, or the Principal Under
Secretary of Defense, Personnel Readiness; DoD Directive 7650.3 states that the
Inspector General, Department of Defense oversees and coordinates follow-up programs
on behalf of the Deputy Secretary of Defense. The Directive furthers states that the heads
of DoD Components work with the DoD Inspector General to resolve disagreements and
that outstanding issues will be decided by the Deputy Secretary of Defense.

Army Comments on Finding A
General Comments on Finding A
The Assistant Chief of Staff for Installation Management stated that our draft report
failed to acknowledge that:

   •   childcare spaces in re-locatable facilities were only a stop gap measure,

   •   significant penalties would have been incurred to cancel existing construction
       contracts or change the Recovery Act-funded CDC project designs,

   •   delays in CDC openings would impact childcare for more than 1,000 children,
       and

   •   additional options (other than CDCs) for childcare are available at garrisons.

Additionally, the Assistant Chief of Staff stated that Finding A had no recommendation,
yet the report states that the Army’s methodology needed improvement.

Our Response
The Assistant Chief of Staff’s assertion that childcare spaces in re-locatable facilities
were only a “stop gap” measure is inconsistent with his comments regarding plans for

                                             21
re-locatable facilities. Specifically, his comments regarding Fort Drum note that Fort
Drum is to retain a “temporary re-locatable facility (providing 100 childcare spaces),”
which was to close by FY 2014.

We disagree that the report does not acknowledge penalties that would result from
canceling existing construction contracts or changing the Recovery Act-funded CDC
project designs. Specifically, the “Opportunity for Adjusting Apportionment of
Childcare Spaces Still Exists” section states that, because the Army had already awarded
contracts for all seven of the planned Recovery Act-funded CDCs, there was no longer an
opportunity to change the size of the CDCs to adjust the apportionment of childcare
spaces. Our report states that reapportioning these CDCs would lead to contract penalties
for canceling projects. Additionally, because we are not recommending canceling
existing contracts or project designs, there will be no resulting delays in CDC openings.

In addition, we address additional options (other than CDCs) for childcare available at
garrisons in the “Army Policy on Establishing and Operating Child Development
Services” section. The section contains a list of additional options for childcare (other
than CDCs), as defined in Army Regulation 608-10 (Personal Affairs), “Child
Development Services,” July 15, 1997.

Furthermore, we did not include a recommendation in Finding A because the Army had
taken action to meet the intent of a recommendation in a discussion draft of the report.
The recommendation was for the Assistant Chief of Staff for Installation Management to
use the bid savings resulting from contract awards on the seven Recovery Act-funded
CDCs to fund construction of an additional CDC at the base having the greatest need for
additional childcare capability. In his March 5, 2010, response to our discussion draft,
the Assistant Chief of Staff agreed with this recommendation. As discussed in the
“Management Actions During the Audit” section, in April 2010, the Army announced
plans to fund construction of a CDC at Fort Polk, Louisiana, using the additional military
construction funds. At the time of our audit, the Army projected Fort Polk as the fort
with the greatest projected shortfall in childcare capacity in FY 2015.

Comments on Needs-Based Planning to Provide Additional CDC
Capacity to Bases With the Greatest Need
The Assistant Chief of Staff stated that he disagreed that the Army did not emphasize
working towards the most equitable distribution of childcare resources and instead
focused mainly on formulating a CDC construction plan that would result in timely
expenditure of the $80 million in Recovery Act funding for CDCs. The Assistant Chief
of Staff further stated that the Army appropriately complied with guidance from the
U. S. Senate Committee on Appropriations to provide a list of projects that the Army
could execute quickly to provide economic stimulus.

Our Response
We agree that the Army responded to the guidance from the U.S. Senate Committee on
Appropriations with a list of projects, including the seven Recovery Act-funded CDCs,
which it could execute quickly to provide construction stimulus. However, as stated in

                                             22
the report, the Army’s actions did not fully meet the intent of OMB Memorandum M-09-
15. Specifically, OMB Memorandum M-09-15 requires merit-based decisionmaking in
choosing projects, which we believe means that the Army bases with the greatest
shortage of childcare services have the greatest need for, and would derive the greatest
benefit from, additional CDC capacity.

We clarified our discussion in the final report to better clarify that the Army formulated
its CDC construction plan in response to guidance that the Army received from the
U.S. Senate Committee on Appropriations in executing the CDC projects. In a
November 8, 2009, e-mail, “Congressional – SAC-M Stimulus Package Request
(#81110906),” the Army Congressional Affairs Installation Management team requested
staff recommendations for projects that the Army could execute “quickly.”

Comments on the Opportunity for Adjusting the Apportionment
of Childcare Spaces Still Exists
The Assistant Chief of Staff stated that the Army made an extraordinary effort to meet its
soldier and family readiness requirements with the following results.

   •   Army-identified Recovery Act projects were already in the Future Years Defense
       Plan (FYs 2011-2013) and were validated as requirements that would contribute
       to meeting the Army’s childcare demand end strength of 87,479 childcare spaces.

   •   The FY 2010 Budget Estimate Submission for all Army military construction
       projects shows that the Army’s Recovery Act childcare projects, with the
       exception of the Fort Belvoir CDC, were previously identified as requirements.
       The Assistant Chief of Staff stated that the Army added the Fort Belvoir CDC to
       the previously identified requirements because it was projected to be a potential
       FY 2009 congressional addition.

   •   USACE reviewed the DD Forms 1391 to ensure that costs were accurate and that
       projects could be executed in a timely manner in compliance with Army
       Regulation 420-1.

Our Response
We agree that the Army made an effort to meet soldier and family readiness requirements
and that the Recovery Act-funded CDC projects were identified, validated, and reviewed.
Specifically, in the “Apportionment of Childcare Spaces was Questionable” section, we
state that the Army had already approved DD Forms 1391 for the CDCs and the CYSC at
the seven bases receiving Recovery Act funding for constructing these facilities. We also
state that the Army was using Recovery Act funding to meet valid CDC requirements.
As previously noted, we stated that USACE reviewed the DD Forms 1391 to ensure that
costs were accurate and that the projects could be executed quickly.




                                            23
Comments on Appendix D, Currently Planned
Apportionment Versus a Needs-Based Apportionment of
Recovery Act-Funded CDCs
General Comments on Appendix D
The Assistant Chief of Staff stated that our comparison of the Army’s planned
apportionment versus needs-based apportionment of CDCs was flawed because we did
not consider Army garrison responses. The Assistant Chief of Staff noted that Office of
the Deputy Assistant Chief of Staff for Installation Management personnel had informed
us of the problems with our analysis in a November 2009 meeting.

Our Response
The comparison of the Army’s actual CDC selection versus a needs-based apportionment
of CDCs shows that using a needs-based apportionment would have resulted in more
closely meeting base CDC childcare space requirements. However, as our report
acknowledges, the Army had already awarded contracts for all seven of the planned
Recovery Act-funded CDCs, so there was no longer an opportunity to change the size of
the CDCs to adjust the apportionment of childcare spaces. To reapportion these CDCs
would have lead to delays in project execution and increased costs, including penalties
for canceling contracts for the CDC projects already in implementation. See our
responses below regarding Fort Bragg, Fort Carson, Fort Drum, and Fort Hood for
detailed examples of how needs-based CDC apportionment provides better distribution of
childcare capability throughout the Army.

Comments on Fort Bragg Portion of Appendix D
The Assistant Chief of Staff stated that our needs-based apportionment conclusion to
increase the Fort Bragg CDC size from a 232-child to a 338-child capacity CDC is not
viable because the identified construction site could not accommodate a larger capacity
CDC and because re-competing the contract would cause additional expense and delay.
He also noted that, although the Army’s GCM continues to project a childcare need at
Fort Bragg, the base has not requested additional capacity beyond the facilities projected
to open through FY 2012. He further noted that the Army will review Fort Bragg
childcare demand again after the new facility is open and that Fort Bragg will continue to
meet any interim childcare needs through on-base homes or off-base programs.

Our Response
We recognize that it is no longer viable to change the size of the Recovery Act-funded
CDC. However, if the Army staff had used needs-based CDC apportionment, they could
have considered alternate construction sites that would have accommodated a larger CDC
facility. Also, the Army staff could have sized the Fort Bragg Recovery Act-funded CDC
to better distribute childcare capability.

Fort Bragg had a projected CDC childcare requirement of 3,259 spaces in FY 2015,
2,279 of which were projected as available. The Army was planning to use Recovery Act

                                            24
funding to build a medium-sized CDC to gain 232 spaces. However, the medium-sized
CDC would not enable Fort Bragg to have an acceptable (at least 80 percent of the
requirement) number of childcare spaces. By increasing the childcare spaces to 338, Fort
Bragg would have an acceptable childcare space range. Table E-1 shows how the needs-
based-apportioned CDC would have better met childcare needs.

Table E-1. Comparison of Currently Planned Apportionment Versus Needs-Based
            Apportionment of Recovery Act-Funded CDC Resources
                        at Fort Bragg, North Carolina
                 (measured in number of CDC childcare spaces)

        Fort Bragg, North         Spaces             Spaces           Percent Filled
             Carolina            Required           Available
       November 2009
                                                      2,279                 70
       Capacity
       Adding Planned
       Recovery Act-
                                                      2,511                 77
       Funded 232-child            3,259
       capacity CDC
       Adding Needs-
       Based 338-child                                2,617                 80
       capacity CDC

Comments on the Fort Carson Portion of Appendix D
The Assistant Chief of Staff stated that our needs-based apportionment conclusion to
decrease the CDC size from a 232-child to a 126-child capacity CDC was not viable
because the planned CDC will replace three temporary re-locatable facilities (now
providing 249 childcare spaces) that will be closed when the 232-child capacity CDC is
operational.

Our Response
We recognize that it is no longer viable to change the size of the Recovery Act-funded
CDC. However, Army staff could have sized the Fort Carson CDC to better distribute
childcare capability had they used needs-based CDC apportionment in planning the CDC
construction.

Fort Carson had a projected CDC childcare requirement for 2,085 spaces, 1,895 of which
were available. The Army was planning to build a medium-sized CDC with Recovery
Act funding to gain 232 spaces. Data from the Army’s Family Morale, Welfare, and
Recreation Command had already taken into account the reduction of 249 childcare
spaces from temporary re-locatable Fort Carson facilities. By decreasing Fort Carson
childcare spaces to a needs-based level of 126, the base would remain at an acceptable
childcare capacity. Table E-2 shows how needs-based apportioned CDC would have
better met childcare needs.



                                           25
Table E-2. Comparison of Currently Planned Apportionment Versus Needs-Based
            Apportionment of Recovery Act-Funded CDC Resources
                          at Fort Carson, Colorado
                 (measured in number of CDC childcare spaces)

          Fort Carson,            Spaces              Spaces          Percent Filled
            Colorado             Required            Available
       November 2009
                                                       1,895                 91
       Capacity
       Adding Planned
       Recovery Act-
                                                       2,127                102
       Funded 232-child             2,085
       capacity CDC
       Adding Needs-
       Based 126-child                                 2,021                 97
       capacity CDC

Comments on the Fort Drum Portion of Appendix D
The Assistant Chief of Staff stated that that our needs-based apportionment conclusion to
increase the CDC size from a 126-child to a 232-child capacity CDC is not viable
because Fort Drum would retain a temporary re-locatable facility (providing 100
childcare spaces), which was originally planned to close by FY 2014. He also stated that
Fort Drum staff had determined that the 126-child capacity CDC would meet the base’s
needs.

Our Response
We recognize that it is no longer viable to change the size of the Recovery Act-funded
CDC. However, Army staff could have sized the Fort Drum CDC to better distribute
childcare capability had they used needs-based apportionment in CDC planning.

Fort Drum had a CDC childcare need for 1,612 spaces, 1,221 of which were available.
The Army was planning to build a small CDC with Recovery Act funding to gain
126 spaces. Data from the Army’s Family Morale, Welfare, and Recreation Command
already took into account the retention of the 100 childcare spaces from the temporary re-
locatable facilities. With the addition of the small Recovery Act-funded CDC, Fort Drum
would have an acceptable number of childcare spaces. By increasing the childcare spaces
to 232, Fort Drum will better fill this need. Table E-3 shows how the needs-based
apportioned CDC would have better met Fort Drum childcare needs.




                                            26
Table E-3. Comparison of Currently Planned Apportionment Versus Needs-Based
            Apportionment of Recovery Act-Funded CDC Resources
                          at Fort Drum, New York
                 (measured in number of CDC childcare spaces)

         Fort Drum, New           Spaces             Spaces           Percent Filled
               York              Required           Available
       November 2009
                                                       1,221                76
       Capacity
       Adding Planned
       Recovery Act-
                                                       1,347                84
       Funded 126-child            1,612
       capacity CDC
       Adding Needs-
       Based 232-child                                 1,453                90
       capacity CDC

Comments on the Fort Hood Portion of Appendix D
The Assistant Chief of Staff stated that that our needs-based apportionment conclusion to
decrease the CDC size from a 338-child to a 232-child capacity CDC is not viable
because the 338 capacity CDC is required to meet the garrison childcare demand and
would augment and eventually replace a 100-childcare space re-locatable facility.

Our Response
We recognize that it is no longer viable to change the size of the Recovery Act-funded
CDC. However, the Army staff could have sized the Fort Hood CDC to better distribute
childcare capability had they used a needs-based CDC apportionment planning approach.

Fort Hood had a CDC childcare need for 2,876 spaces, 2,602 of which were available.
The Army was planning to build a large CDC with Recovery Act funding to gain
338 spaces. Data from the Army’s Family Morale, Welfare, and Recreation Command
already took into account the reduction of 82 childcare spaces from the temporary re-
locatable facilities once the Recovery Act CDC is operational. By decreasing the
childcare spaces to 232 through needs-based apportionment, Fort Hood would still
remain at acceptable childcare capability. Table E-4 shows how the needs-based
apportionment approach would have better met childcare needs at Fort Hood.




                                           27
Table E-4. Comparison of Currently Planned Apportionment Versus Needs-Based
            Apportionment of Recovery Act-Funded CDC Resources
                          at Fort Drum, New York
                 (measured in number of CDC childcare spaces)

        Fort Hood, Texas           Spaces             Spaces           Percent Filled
                                  Required           Available
       November 2009
                                                        2,602                 90
       Capacity
       Adding Planned
       Recovery Act-
                                                        2,940                102
       Funded 338-child             2,876
       capacity CDC
       Adding Needs-
       Based 232-child                                  2,834                 99
       capacity CDC

Army Comments on Finding B
General Comments on Finding B
The Assistant Chief of Staff stated that our conclusion that that the Army overestimated
planned CDC capacity was based on a misunderstanding of the Army’s assessment tool,
the GCM, which projects CDC operational capability for 2008 and out-year CDC
construction projects. He further stated that a GCM chart included in the Army
comments provided a graphic depiction of the process the Army uses to assess gaps and
identify the projected childcare demand caused by future Army population changes.

Our Response
We did not misunderstand the Army’s GCM assessment tool. The chart noted in the
Army’s comments was an excerpt from a Family Morale, Welfare, and Recreation
Command briefing, “Garrison Capability Model,” March 2009, which we discuss in the
“Army Needs to Revise Methodology for Assessing CDC Childcare Capacity” section of
this report. The briefing outlined a five-step process for assessing the Army’s ability to
meet projected childcare demands. Steps 1 and 2 required:

   •   reviewing the current operational childcare capability, to include existing CDCs,
       and
   •   adding projected childcare capability, to include programmed MILCON of CDCs.

Step 1 included defining CDC operational space capacity, based on square footage and
adult-to-child ratios. For Step 1, the briefing specifically stated that CDC operational
space capacity is not design capacity. However, we note in the report that Step 2 is
inconsistent with Step 1, which uses operational capacities of CDCs as input for
determining childcare capability. The Family Morale, Welfare, and Recreation



                                            28
Command briefing highlights the inconsistency in Step 2 by including two examples that
use design capacities, rather than expected operational capacities, of planned CDCs to
determine future childcare capabilities. Using design capacities of CDCs to project
childcare capability is less accurate because the actual operational capacity of a CDC will
be less than the design capacity.


Comments on Design Capacity Overestimated Childcare
Capacity
The Assistant Chief of Staff stated that the new Army standard CDC designs, approved in
2008, have childcare space capability ranges built into the designs, while the Army’s
older 303 standard design CDCs, which we toured while at the four installations we
visited, had a defined capacity. He noted that using the new capability range design gives
the Army needed flexibility to adjust to the changing childcare needs and avoids costly
retrofitting of classrooms as the child population fluctuates due to deployment-related
baby booms, changes in adult-to-child supervision ratios, Army transformation, and troop
movements. Further, the Assistant Chief of Staff stated that the capability ranges in the
new standard design address our concerns about the Army’s planning process. Lastly,
the Assistant Chief of Staff noted that the Army’s inventory of CDC facilities includes
many older, nonstandard facilities built before 2008 that have since been renovated and
do not have the flexibility that the new Army CDC standard designs provide. He stated
that these renovation efforts have changed the original design space capacity in these
CDCs to give them their current operational capability to meet the needs of the increasing
numbers of infants and toddlers.

Our Response
As noted in Finding B, the Army’s new standard design for CDCs serving children under
6 years of age is in the Assistant Chief of Staff for Installation Management
Memorandum, “Army Standard for Child Development Centers,” March 12, 2008.
However, the memorandum does not clearly define the capacity range for CDCs designed
for children under 6 years of age. The memorandum only states that facility capacity “. . .
could vary depending on installation requirements” and that “Activity rooms allow for
flexibility in programming and use.” In contrast, the Army clearly defines capability
range in the Assistant Chief of Staff for Installation Management Memorandum, “Army
Standard for Child Development Centers,” October 19, 2004, which defines capability
ranges of CDCs designed for children from 6 through 10 years of age. Specifically, the
2004 memorandum defines facility childcare capacities as follows for four designs:

   •   60-75 (wing addition to existing CDC)
   •   105-135
   •   150-180
   •   195-225

We agree with the Assistant Chief of Staff’s statement that Army renovation efforts have
changed the original design space capacity in existing CDCs to their current operational


                                            29
capability to meet the needs of increasing numbers of infants and toddlers. We consider
the Assistant Chief of Staff’s statement concerning the renovation of the older CDCs as
consistent with our recommendation for using expected operational capability when
estimating a garrison’s future childcare capacity.




                                           30
Department of the Army Comments




                  Click to add JPEG file




                                 31
Click to add JPEG file




               32
                           Final Report
                            Reference




                         Sentence added to
                         "Army Did Not
Click to add JPEG file   Focus on Needs-
                         Based Planning to
                         Provide Additional
                         CDC Capacity to
                         Bases with the
                         Greatest Need"
                         section, page 6




               33
Click to add JPEG file




               34
Click to add JPEG file




               35
                           Final Report
                            Reference

                         Enclosures 2, 3,
                         and 4 are not
                         included. Reasons
                         are stated on pages
                         20-21.




Click to add JPEG file




               36
